                                  September 24, 1999


Ms. Virginia Flowers

Assistant Regional Commissioner

 for Management and Operations Support

Social Security Administration, Region III

P.O. Box 8788

Philadelphia, Pennsylvania 19101


Dear Ms. Flowers:


Enclosed is the final report entitled, “Audit of the Administrative Costs Claimed by the

Delaware Disability Determination Services” (A-13-98-52015). The objectives of this

audit were to evaluate the Delaware Disability Determination Services’ internal controls

over the accounting and reporting of administrative costs, to determine the allowability

and allocability of costs claimed, and to determine whether the aggregate of the Social

Security Administration funds drawn down agreed with total expenditures.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to comment, please provide your comments within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Frederick Nordhoff, Acting Director, Financial Management Audits Division, at

(410) 966-6676.





                                                Daniel R. Devlin
                                                Acting Inspector General
                                                 for Audit

Enclosure

cc:

Andrew Marioni

Director

Delaware Disability Determination Services

           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



        AUDIT OF THE
    ADMINISTRATIVE COSTS
       CLAIMED BY THE
    DELAWARE DISABILITY
   DETERMINATION SERVICES

   September 1999   A-13-98-52015




AUDIT REPORT

                 E X E C U TI V E S U M M AR Y


OBJECTIVE

The objectives of our audit were to:

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as the draw down of the Social Security Administration (SSA)
     funds;

•	   determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the period October 1, 1994 through
     September 30, 1997, were allowable and properly allocated; and

•	   determine whether the aggregate of the SSA funds drawn down agreed with total
     expenditures for the Fiscal Years (FY) 1995 through 1997 disability determinations.

BACKGROUND

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (the Act). The DI program is designed to provide benefits to wage earners
and their families in the event the wage earner becomes disabled. Supplemental
Security Income (SSI) was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974 (Public Law 92-603). SSI (title XVI of
the Act) provides a nationally uniform program of income to financially needy individuals
who are aged, blind, or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. To carry out its obligation, each State agency (SA) is
responsible for determining the claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from
claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, the SA submits
a budget request to SSA for review and approval. Once approved, the SA is allowed to
withdraw Federal funds through the U.S. Department of Health and Human Services’
Payment Management System or the Department of the Treasury’s Automated
Standard Application Payments System to meet immediate program expenses. At the



                                           i
end of each quarter of the Federal FY, each SA submits to SSA a "State Agency Report
of Obligations for SSA Disability Programs" (Form SSA-4513) to account for program
disbursements and unliquidated obligations.

DE-DDS had an authorized budget of $8,696,768 for disability determinations for the
audited FYs 1995 through 1997.

We conducted our field work from August 1998 through January 1999 at DE-DDS in
Wilmington, Delaware, and our office in Baltimore, Maryland. Our audit was conducted
in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW

We reviewed the administrative costs for personnel, medical services, fringe benefits,
travel, equipment, and other nonpersonnel costs. We also reviewed the calculation of
indirect costs. Our audit disclosed the following problems:

•   INCORRECT EXPENSE PAYMENTS

•   INCORRECT AGENCY PAYMENTS

•   UNSUPPORTED COSTS


CONCLUSIONS AND RECOMMENDATIONS


We recommend DE-DDS take the following actions to resolve the problems found in our
audit.

•	 Provide to SSA’s Philadelphia Regional Office of Disability support for the correction
   of the cited medical consultant payments or reimburse SSA in the amount of
   $14,424.

•	 Strengthen procedures to reduce the likelihood of repeat errors for medical
   consultant payments, medical evidence record and consultative examination
   payments.

•	 Repay SSA $19,965 for the Delaware Division of Vocational Rehabilitation expenses
   that were incorrectly charged to SSA.

•	 Provide to SSA Philadelphia Regional Office of Disability adequate documentation to
   support the questioned cost of $41,933 or provide reimbursement for the questioned
   amount.




                                          ii
                        T AB L E O F C O N T E N T S

                                                                                                              Page


EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 4


    INCORRECT EXPENSE PAYMENTS .............................................................. 4


    INCORRECT AGENCY PAYMENTS ................................................................ 5


    UNSUPPORTED COSTS.................................................................................. 5


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 6


APPENDICES

APPENDIX A – Obligations Reported/Allowed – Fiscal Year 1995

APPENDIX B – Obligations Reported/Allowed – Fiscal Year 1996

APPENDIX C – Obligations Reported/Allowed – Fiscal Year 1997

APPENDIX D – Questioned Costs

APPENDIX E – SSA and DE-DDS Comments

APPENDIX F – Major Contributors to This Report

APPENDIX G – SSA Organizational Chart

                          I N TR O D U C TI O N


OBJECTIVES

The objectives of our audit were to:

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as the draw down of the Social Security Administration (SSA)
     funds;

•	   determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the period October 1, 1994 through
     September 30, 1997, were allowable and properly allocated; and

•	   determine whether the aggregate of the SSA funds drawn down agreed with total
     expenditures for the Fiscal Years (FY) 1995 through 1997 disability determinations.


BACKGROUND

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (the Act). The DI program is designed to provide benefits to wage earners
and their families in the event the wage earner becomes disabled. Supplemental
Security Income (SSI) was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974 (Public Law 92-603). SSI (title XVI of the
Act) provides a nationally uniform program of income to financially needy individuals
who are aged, blind, or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. To carry out its obligation, each State agency (SA) is
responsible for determining the claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from
claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, the SA submits
a budget request to SSA for review and approval. Once approved, the SA is allowed to
withdraw Federal funds through the U.S. Department of Health and Human Services’


                                          1

Payment Management System or the U.S. Department of the Treasury’s (Treasury)
Automated Standard Application Payments System to meet immediate program
expenses. At the end of each quarter of the Federal FY, each SA submits to SSA a
"State Agency Report of Obligations for SSA Disability Programs" (Form SSA-4513) to
account for program disbursements and unliquidated obligations.

Cash drawn from Treasury to pay for program expenditures is to be drawn according to
Part 205 of title 31 of the Code of Federal Regulations (CFR) and in accordance with
intergovernmental agreements entered into by Treasury and States under the authority
of the Cash Management Improvement Act of 1990 (CMIA), Public Law 101-453, 104
Stat. 1058, as amended.

An advance or reimbursement for costs under the program must be made according to
the Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State
and Local Governments.”

Delaware Disability Determination Services (DE-DDS) is a component within the
Delaware Department of Labor’s (DE-DOL) Division of Vocational Rehabilitation (DE­
DVR). DE-DDS’ sole work is processing SSA disability determinations. DE-DDS
maintains 1 location and employs approximately 32 personnel. SSA authorized a
budget of $8,696,768 for disability determinations for the audited FYs 1995 through
1997.

DE-DDS’ financial reporting functions are primarily the responsibility of DE-DVR.
Allocation of indirect costs is done according to a DE-DOL indirect cost agreement that
is approved by the U.S. Department of Labor.

SCOPE AND METHODOLOGY

To accomplish the objectives, we obtained sufficient evidence to evaluate the financial
transactions to determine whether they were allowable under OMB Circular A-87 and
appropriate as defined by SSA's Program Operations Manual System (POMS). Further,
we:

�	 reviewed title 20 CFR sections, the POMS, and other instructions pertaining to
    administrative costs incurred by DE-DDS and to the drawdown of SSA funds
    covered by the CMIA agreement;

�	 interviewed DE-DDS personnel, DE-DVR personnel, DE-DOL personnel, and SSA's
    staff at the Philadelphia Regional Office of Disability and the Headquarters Office of
    Disability;

�   reviewed DE-DDS’ general policies and procedures;




                                           2

�	 reviewed and tested internal controls regarding accounting and financial reporting,
   and cash management activities;

�	 performed an examination of the administrative expenditures (personnel, medical
   service, indirect, and all other nonpersonnel costs) incurred and claimed by DE-DDS
   for the period October 1, 1994 through September 30, 1997;

�	 reconciled the official State accounting records to the administrative costs reported
   by DE-DDS to SSA on the Form SSA-4513 report for the period October 1, 1994
   through September 30, 1997; and

�	 compared the amount of SSA funds drawn for support of program operations to the
   allowable expenditures.

We tested documents supporting the costs claimed by DE-DDS for the period

October 1, 1994 through September 30, 1997, as reported to SSA as of June 30, 1998.


We conducted our field work in Wilmington, Delaware, at DE-DDS, DE-DOL and DE­

DVR offices; and SSA Headquarters in Baltimore, Maryland, from August 1998 through

January 1999. Our audit was performed in accordance with generally accepted

government auditing standards.





                                          3

                  R E S U L T S O F R E V I E W


INCORRECT EXPENSE PAYMENTS

DE-DDS made incorrect expense payments for medical consultant, medical evidence
record and consultative examination (MER/CE) expenses.

Medical consultants payments were incorrectly disbursed (see Appendix D). Out of the
134 payment vouchers (PV) reviewed, we found 9 PVs were erroneously paid. Seven
PVs constituted $14,424.39 (5.25 percent) of the $274,658.28 for medical consultant
expenses reviewed. A breakdown of the seven PVs shows:

•	 four PVs totaling $10,527.05 were erroneously paid with FY 1996 funds instead of
   FY 1997 funds;

•	 two PVs totaling $3,533.34 were erroneously paid with FY 1995 funds instead of
   FY 1994 funds; and

•   one PV for $364.00 was erroneously paid with FY 1996 funds instead of FY 1995.

Also, two PVs did not have required signatures. Agency certification of services was
not indicated. Certification is required to verify attendance and amounts; and to support
disbursement of funds. Lack of approval signatures could possibly cause incorrect
payments to vendors.

In addition, MER/CE payments were made for incorrect amounts and used incorrect FY
funds. Out of 294 PVs reviewed, four PVs contained the following errors:

•   one PV for $62.50 was for a CE overpayment; and

•   three PVs totaling $821.00 were erroneously paid in an incorrect FY.

POMS DI39506.809, “Establishing and Recording Obligations,” paragraph B states that
personal costs and related benefits include as obligations the amounts of salaries and
wages earned by employees and others during the reporting period, regardless of
payment date. Paragraph C states that obligations for consultative examinations and
medical evidence of record should be recorded as of the date the authorizations are
issued. DE-DDS has recorded obligations in the incorrect amount and incorrect reporting
period.




                                          4

We found the incorrect expense payments occurred as a result of staff error. The DE-
DDS staff will review its accounting records to determine whether any adjustments have
been made.

As a result of these errors, DE-DDS is not correctly spending SSA funds and has
instances of incorrect and excessive payments.

INCORRECT AGENCY PAYMENTS

DE-DDS incorrectly charged $19,965 of DE-DVR expenses for the period of October
and November 1995 to DE-DDS (see Appendix D). The total amount of DE-DVR
charges were billed to DE-DDS, instead of being appropriately charged to DE-DDS and
DE-DVR. This occurred for 2 of the 36 PVs reviewed.

POMS DI39509.001, “Records and Reports,” paragraph D3 (e) states that a purpose of
records and reports is to support the disbursement of funds. DE-DDS records show
that DE-DVR expenses were mistakenly charged to DE-DDS.

DE-DDS and DE-DVR personnel stated that these were payment errors made by the
accounting staff.

As a result of the payment errors, DE-DDS was incorrectly reimbursed $19,965 by SSA
for expenses of DE-DVR.

UNSUPPORTED COSTS

DE-DDS has unsupported costs of $41,933 (see Appendix D). We selected various
sample items for verification testing during the audit. Of the costs reviewed, DE-DDS
was unable to locate supporting documentation for $41,933 of costs. The category
breakdown is as follows:

   Other Nonpersonnel Costs          $41,588
   Medical Service Costs                $345

POMS DI39509.001, “Records and Reports,” Paragraph D3 (e) states that a purpose of
records and reports is to support the disbursement of funds. DE-DDS cannot support
the disbursement of $41,933 for the audit period of FYs 1995 through 1997.

DE-DDS personnel stated that they would continue to search for the missing
documents. Further, staff stated that the majority of missing costs were from FY 1995,
when the agency physically moved to a new location. Also at this time, DE-DOL
changed from a centralized to a decentralized filing system.

The lack of documentation results in DE-DDS being unable to substantiate costs of
$41,933 for the audit period.


                                         5

 CONCLUSIONS AND RECOMMENDATIONS


With the exception for the preceding findings, DE-DDS has generally complied with
financial requirements of the DDS program and other applicable Federal cost principles
and regulations. DE-DVR and DE-DDS staff were very helpful and prompt in providing
the required documentation needed to conduct our audit.

Based on the information obtained from SSA, DE-DDS, and the tests we performed, we
recommend that DE-DDS:

1. 	 Provide to SSA’s Philadelphia Regional Office of Disability support for the correction
     of the cited medical consultant payments or reimburse SSA in the amount of
     $14,424.

2. 	 Strengthen procedures to reduce the likelihood of repeat errors for medical
     consultant payments, MER-CE payments.

3. Repay SSA $19,965 for DE-DVR expenses that were incorrectly charged to SSA.

4. Provide to SSA Philadelphia Regional Office of Disability adequate documentation to
   support the questioned cost of $41,933 or provide reimbursement for the questioned
   amount.

DELAWARE DDS COMMENTS

DE-DDS agrees with findings one and two. Concerning finding three, DE-DDS admitted
it could not locate the documentation to support these costs, but stated that the costs
were legitimate and paid correctly in good faith. DE-DDS requested a waiver from
making changes to the accounting records, as reported in recommendation number
one. DE-DDS also requested a waiver from reimbursing SSA for unsupported
expenses of $41,933 as noted in recommendation number four (see Appendix E for the
full text of SSA and DE-DDS comments).

OIG RESPONSE

Without proper documentation, we cannot confirm that the costs identified in finding
three were legitimate and correctly paid. The authority to accept or deny DE-DDS’
waiver request is the responsibility of SSA.




                                           6

APPENDICES

                                                                                                                                 APPENDIX A


                         OBLIGATIONS REPORTED/ALLOWED

                   DELAWARE DISABILITY DETERMINATION SERVICES

                      FOR FISCAL YEAR 1995 AS OF JUNE 30, 1998




                    TOTAL OBLIGATIONS                       UNLIQUIDATED OBLIGATIONS                        DISBURSEMENTS
                              NET                                        NET                                     NET
                          RECOMMENDED                                RECOMMENDED                             RECOMMENDED
  COSTS     REPORTED      ADJUSTMENTS      ALLOWABLE      REPORTED   ADJUSTMENTS   ALLOWABLE   REPORTED      ADJUSTMENTS      ALLOWABLE


PERSONNEL   $1,357,016          ($3,533)     $1,353,483         $0            $0          $0   $1,357,016          ($3,533)     $1,353,483
MEDICAL        468,780            (310)        468,470           0             0           0     468,780             (310)        468,470
INDIRECT       309,643                0        309,643           0             0           0     309,643                 0        309,643
ALL OTHER      838,478          (41,588)       796,890           0             0           0     838,478           (41,588)       796,890
TOTAL        $2,973,917         $45,431      $2,928,486         $0             0           0   $2,973,917          $45,431      $2,928,486
                                                                                                                                APPENDIX B


                         OBLIGATIONS REPORTED/ALLOWED

                   DELAWARE DISABILITY DETERMINATION SERVICES

                      FOR FISCAL YEAR 1996 AS OF JUNE 30, 1998




                    TOTAL OBLIGATIONS                       UNLIQUIDATED OBLIGATIONS                        DISBURSEMENTS
                              NET                                        NET                                     NET
                          RECOMMENDED                                RECOMMENDED                             RECOMMENDED
  COSTS     REPORTED      ADJUSTMENTS      ALLOWABLE      REPORTED   ADJUSTMENTS   ALLOWABLE   REPORTED      ADJUSTMENTS      ALLOWABLE


PERSONNEL   $1,242,871         ($10,891)     $1,231,980         $0            $0          $0   $1,242,871         ($10,891)     $1,231,980
MEDICAL        479,124              (35)       479,089           0             0           0     479,124               (35)       479,089
INDIRECT       301,834                0        301,834           0             0           0     301,834                 0        301,834
ALL OTHER      691,841          (19,965)       671,876           0             0           0     691,841           (19,965)       671,876
TOTAL        $2,715,670         $30,891      $2,684,779          0             0           0   $2,715,670          $30,891      $2,684,779
                                                                                                                           APPENDIX C


                         OBLIGATIONS REPORTED/ALLOWED

                   DELAWARE DISABILITY DETERMINATION SERVICES

                      FOR FISCAL YEAR 1997 AS OF JUNE 30, 1998




                    TOTAL OBLIGATIONS                    UNLIQUIDATED OBLIGATIONS                        DISBURSEMENTS
                              NET                                     NET                                     NET
                          RECOMMENDED                             RECOMMENDED                             RECOMMENDED
  COSTS     REPORTED      ADJUSTMENTS   ALLOWABLE      REPORTED   ADJUSTMENTS   ALLOWABLE   REPORTED      ADJUSTMENTS   ALLOWABLE


PERSONNEL   $1,341,337             $0     $1,341,337         $0            $0          $0   $1,341,337             $0     $1,341,337
MEDICAL        815,966              0       815,966           0             0           0     815,966               0       815,966
INDIRECT       317,762              0       317,762           0             0           0     317,762               0       317,762
ALL OTHER      532,116              0       532,116           0             0           0     532,116               0       532,116
TOTAL        $3,007,181            $0     $3,007,181          0             0           0   $3,007,181             $0     $3,007,181
                                                        APPENDIX D


                QUESTIONED COSTS



Incorrect Medical Consultant Payments
                                App.
            Invoice             Code    Amount       Totals

Non-Personnel

PV600123794                   1295       1,366.67
PV600123795                   1295       2,166.67    3,533.34
PV601248925                   1296         364.00
EX6008200000293               1296       4,132.70
EX6008200000294               1296       2,431.00
EX6008200000295               1296       2,066.35
EX6008200000296               1296       1,897.00   10,891.05
Total                                               14,424.39

Incorrect Non-Personnel Payments
                              App.
             Invoice          Code      Amount      Totals
 EX6017548-IV60601068455     1296       15,800.54
 EX6017548-IV60601068427     1296        4,164.60
 Total Incorrect Payments                           19,965.14




                             D-1

Unsupported Costs
                            App.
            Invoice         Code   Amount      Totals

 Non-Personnel
 EX6008200000099            1295      370.00
 IV60601006374 02           1295    6,666.82
 IV606010311603 02          1295   13,450.50
 IV60601031413 02           1295    9,374.59
 IV60601031616 01           1295      598.00
 IV60601049931 02           1295   10,742.81
 PV600131926 01             1295      321.12
 PV60490663PE               1295       64.00
 Non-Personnel Total                           41,587.84
 MER/CE
 PV600014314     18         1295       4.00
 PV600014692     10         1295      10.00
 PV600016090     05         1295     125.00
 PV600016587     02         1295     145.00
 PV600017056     05         1295      26.00      310.00
 PV600019305     35         1296      35.00       35.00
 MER/CE Total                                     345.00
 Total Unsupported Costs                       41,932.84




                           D-2

                       APPENDIX E



SSA AND DE-DDS COMMENTS

                                                                             APPENDIX F



 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Frederick C. Nordhoff, Acting Director, Financial Management Audits Division

Philip Rogofsky, Acting Audit Manager

John Beacham, Auditor-In-Charge

Katherine Baker, Auditor

Cheryl Robinson, Writer-Editor, Technical Services



For additional copies of this report, please contact the Office of the Inspector General’s

Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number

A-13-98-52015.

                        APPENDIX G



SSA ORGANIZATIONAL CHART

